REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  CONTROLS AND TESTING OF CONTROLS
           HEARTLAND REGION
    REPORT NUMBER A050009/T/6/Z05018

             MAY 18, 2005
DATE:        May 18, 2005


REPLY TO
ATTN OF:     Heartland Region Field Audit Office (JA-6)

SUBJECT:     Review of Federal Technology Service’s Client Support
             Center Controls and Testing of Controls - Heartland Region
             Report Number A050009/T/6/Z05018

TO:          Bradley M. Scott
             Regional Administrator (6A)

             Barbara L. Shelton
             Acting Commissioner, Federal Technology Service (T)


This report presents the results of the Office of Inspector General’s audit of the Federal
Technology Service (FTS) Client Support Center (CSC) in the Heartland Region
(Heartland CSC). The Ronald W. Reagan National Defense Authorization Act for Fiscal
Year 2005 (Public Law 108-375) directed the Inspectors General of the General
Services Administration and the Department of Defense to jointly perform a review of
each FTS CSC and determine whether each CSC is compliant, not compliant, or not
compliant but making significant progress with Defense procurement requirements.


Objectives, Scope and Methodology

To review the adequacy of policies, procedures, and internal controls in each CSC, we
analyzed a random sample of procurement actions executed between August 1, 2004
and October 31, 2004. We also analyzed a judgmental sample of existing orders and
the steps taken to remediate any past problems in these existing orders. For the
Heartland CSC, our sample included 12 new awards and 2 existing orders, valued at
$15.9 million and $73.5 million, respectively. The audit was conducted between
October 2004 and March 2005, in accordance with generally accepted Government
auditing standards.


Results of Audit

We determined the Heartland CSC to be not compliant but making significant progress.
The Region has implemented national controls identified in the Administrator’s Get it
Right Plan and has improved its overall contracting practices, compared with our past


                                           1
audit findings. For example, we found only one minor instance of non-compliance with
the competition requirements of Section 803 of the National Defense Authorization Act
for Fiscal Year 2002. However, we did find 6 new orders that had procurement
compliance deficiencies, including one with potential financial impact. In our review of
existing orders, we found that the CSC inappropriately modified one order to include out
of scope work. As directed in the Ronald W. Reagan National Defense Authorization
Act for Fiscal Year 2005, because the CSC is not fully compliant, we are required to
perform a subsequent audit of CSC contracting practices by March 2006 to determine
whether the CSC has become compliant.

Section 803 Non-compliance. The CSC awarded one new order without following the
competition requirements of Section 803, which requires ordering agencies to obtain a
minimum of three offers for Department of Defense orders for professional services
expected to exceed $100,000 that are placed under multiple award contracts, including
Federal Supply Service (FSS) schedule contracts. This $140,000 task order involved
development of an online training course and was related to a prior task order that the
CSC justified as a sole source award under Federal Acquisition Regulation (FAR)
5.202, acceptance of an unsolicited research proposal that demonstrates a unique and
innovative concept. However, the sole source procurement for this task order was not
adequately justified.

Procurement Compliance Deficiency with Potential Financial Impact. We identified a
$3.2 million schedule order for development and installation of software that the CSC
awarded without requesting discounts as required by FAR 8.4 when orders exceed the
maximum order threshold (MOT) under the schedule contract. FTS does include a
provision in all schedule order statements, regardless of expected dollar value, stating
that prices proposed cannot exceed schedule prices. However, the FAR requires, for
higher dollar value purchases over the MOT, that discounts be specifically requested
given the larger dollar value of the purchase. This order was well above the MOT of
$500,000.

Other Procurement Compliance Deficiencies. We identified four orders that had other
various procurement compliance deficiencies.

   A $2.7 million schedule order for technical and management support did not undergo
    adequate best value determination.             The CSC complied with competition
    requirements and received one proposal but did not analyze the proposed labor mix
    or level of effort in its evaluation of price.

   A $668,000 sole-source schedule order that the CSC awarded as a “bridge”
    contract to allow time to properly re-compete a requirement for local area network
    technical support was awarded as a time and materials contract without adequate
    analysis of labor mix and level of effort in the evaluation of price.

   A $4.9 million schedule order for hazardous material systems support lacked
    documentation to justify actions taken to obtain a revised cost proposal that



                                           2
    increased the price. Only one vendor submitted an offer; a $2.1 million initial bid
    compared to the Independent Government Estimate (IGE) of $4.8 million. After the
    initial bid, FTS requested the sole bidder to provide a second cost proposal because
    the client believed the first bid did not fully address all of the requirements. The
    vendor’s revised cost proposal increased to $4.9 million, although the vendor’s
    technical proposal remained the same. FTS advised that they are planning to re-
    compete the task order after the completion of the base year, which should limit any
    possible financial impact.

   A $1.2 million schedule order for consultant and support services did not include
    adequate evaluation of labor mix and level of effort in the evaluation of pricing.
    Region 6 FTS based the evaluation of labor mix and level of effort on an IGE.
    However, we could not conclude that the IGE was a sufficient independent estimate
    because it was nearly identical to the proposal. FTS stated that this occurred due to
    previous experience with the client and the work.

Existing Order Procurement Deficiency. We identified an inappropriate $4.3 million
modification to an existing $31.1 million schedule order for onsite technical, functional,
and analytical support. The additional work under the modification was not within the
original statement of work, and the CSC did not perform a pricing analysis for the
additional work. CSC officials advised that they planned to terminate the task in March
2005, however, as of the date of this report, this has not occurred.


Conclusion

While not fully compliant, we found that the Heartland CSC has made significant
progress in implementing controls to ensure compliance with procurement regulations.
The CSC has implemented national controls identified in the Administrator’s Get It Right
Initiative and improved its overall contracting practices. However, we did find
procurement compliance deficiencies in 6 new orders, including 1 with potential financial
impact, and 1 existing order that was improperly modified to include out of scope work.
As stated in our January 2004 report on the FTS CSCs, we believe that steps to remedy
the CSC procurement problems require a comprehensive, broad-based strategy that
focuses on the structure, operations and mission of FTS as well as the control
environment. Based on the comprehensive recommendations contained in that report,
no further overall recommendations are deemed necessary at this time.


Management Comments

We obtained agency comments throughout our audit work, providing a draft written
summary of our findings on each order to FTS regional officials for their written
comments, which we incorporated into our analysis as appropriate. We also provided a
draft of this letter report to Regional officials. On April 26, 2005, the Heartland Region
Regional Administrator responded to this report, taking no exception to the report as



                                            3
                      ATTACHMENT 1
MANAGEMENT RESPONSE
                                                                    ATTACHMENT 2

             REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
      CLIENT SUPPORT CENTER CONTROLS AND TESTING OF CONTROLS
                          HEARTLAND REGION
                   REPORT NUMBER A050009/T/6/Z05018


                               REPORT DISTRIBUTION

                                                                           Copies

Acting Commissioner, Federal Technology Service (T)                           3

Regional Administrator (6A)                                                   3

Assistant Inspector General for Auditing (JA & JAO)                           2

Assistant Regional Inspector General for Investigations (JI-5/KC)             1
